OIG Investigative Reports Press Release New York NY., May 14, 2014 - Former Manager Of Tutoring Company Sentenced In Manhattan Federal Court To 24 Months In Prison For Scheme To Bill Federal Government For Tutoring Services That Were Never Provided
Skip to main contentAbout UsContact UsFAQs Language Assistance Englishespañol中文: 繁體版Việt-ngữ한국어TagalogРусский
U.S. Department of Education
Search for:
Toggle navigation
U.S. Department of Education
Student Loans
Grants
Laws
Data
About ED
OFFICES
Home
Reports & Resources
Programs/Initiatives
News
Office Contacts
Investigation Report
THE UNITED STATES ATTORNEY'S OFFICE
SOUTHERN DISTRICT OF NEW YORK
PRESS RELEASES
Former Manager Of Tutoring Company Sentenced In Manhattan Federal Court To 24 Months In Prison For Scheme To Bill Federal Government For Tutoring Services That Were Never Provided
FOR IMMEDIATE RELEASE
Wednesday, May 14, 2014
Preet Bharara, the United States Attorney for the Southern District of New York, announced today that MICHAEL LOGAN, a former manager of TestQuest, Inc. ("TestQuest") — an educational services company that provided tutoring services to students attending underperforming public schools in New York City as part of a federally-funded program — was sentenced today in Manhattan federal court to 24 months in prison for his role in a scheme to defraud the federal government into paying for tutoring services that were never provided. LOGAN pled guilty in June 2013 before U.S. District Judge John F. Keenan, who also imposed today's sentence.
Manhattan U.S. Attorney Preet Bharara said: "With today's sentence Michael Logan must now pay with his liberty for exploiting a federal program meant to benefit students in need. I would like to thank the U.S. Department of Education's Office of the Inspector General for their work in helping us to bring this important case."
According to the Criminal Complaint, Information, and other documents filed in Manhattan federal court, as well as statements made at today's sentencing and other proceedings:
Each year from 2005 through 2012, the New York City Department of Education ("NYCDOE") received funds from the federal government to pay for New York City's Supplemental Educational Services program ("SES"), which included after-school tutoring and other remedial and supplemental academic enrichment services for students attending underperforming public schools. NYCDOE entered into contracts with private entities and organizations to provide SES tutoring to public school students. Students were eligible to receive SES tutoring if they met certain criteria, such as attending a school that had been identified as needing improvement or restructuring for at least two years.
Private entities contracted by NYCDOE to provide SES tutoring were required to have each student who attended a class sign a standard attendance sheet. The tutor was also required to sign the sheet, attesting to the fact that he or she provided SES tutoring to those students whose names appeared on the sheet. Further, as a condition of getting paid for providing tutoring, the private entities were required to certify to NYCDOE that their attendance records were "true and accurate."
From 2005 through 2012, TestQuest contracted with NYCDOE to provide SES tutoring. It provided individual tutoring to students at their homes and group tutoring at various New York City public schools, including the Monroe Academy of Business and Law/High School of World Cultures ("Monroe") and the Global Enterprise Academy/Christopher Columbus High School ("Columbus"). TestQuest received tens of millions of dollars in federal funding for tutoring during this time period, including approximately $2.3 million for tutoring purportedly provided at Monroe and Columbus alone.
From 2005 through 2012, LOGAN was responsible for managing TestQuest's SES tutoring program at Monroe and, later, at Columbus. LOGAN also worked as a long-term substitute teacher and computer technician at Monroe and, at times, coached its baseball team. From 2005 through 2012, LOGAN instructed TestQuest employees to forge student signatures on attendance sheets and to have students sign attendance sheets for tutoring classes they had not attended. On some occasions, he caused TestQuest employees to fraudulently obtain students' signatures by collecting them from students assembled in the school cafeteria or participating in after-school activities such as baseball or basketball practice. LOGAN told these employees that they would not get paid if they did not collect signatures. One TestQuest employee (who did not actually provide any tutoring services for TestQuest but falsely certified that he had) periodically had conversations with LOGAN during which the employee asked what he was supposed to be doing, and LOGAN replied that the employee should tell anyone who asked that he was teaching English.
Further, when LOGAN learned of the criminal investigation, he coached other participants in the fraud to lie to federal investigators. In one recorded conversation, for example, LOGAN encouraged another TestQuest employee to lie about having taught classes that occurred when LOGAN and the employee were actually coaching after-school sports. As a result of LOGAN's conduct, TestQuest employees repeatedly submitted bills to NYCDOE for tutoring that never occurred, and for which TestQuest was paid substantial sums of money.
In addition to the prison term, LOGAN, 50, of the Bronx, New York, was ordered to forfeit $250,000.
The case against LOGAN is part of a broader effort by this Office's Criminal and Civil Divisions to hold SES providers and their employees accountable for fraudulent conduct. To date, this Office has brought coordinated proceedings against three New York City SES providers and their employees for falsifying attendance records and billing for tutoring they did not provide. In 2012 and 2013, this Office filed civil charges against The Princeton Review, Inc. ("Princeton Review"), and civil and criminal charges against several of its former employees. In 2013, this Office filed civil charges against TestQuest, and civil and criminal charges against several of its former employees, including LOGAN. In 2014, this Office filed civil charges against The Academic Advantage ("Academic Advantage"), and civil and criminal charges against several of its former employees. TestQuest settled the civil charges against it by admitting misconduct and agreeing to pay the Government $1.725 million. Princeton Review and Academic Advantage settled with the Government by admitting misconduct and committing to pay up to $10 million and $2 million, respectively. In addition to LOGAN, the following former employees of TestQuest, Princeton Review and Academic Advantage have pled guilty to criminal fraud charges, settled civil fraud charges, or both: Robert Stephen Green, Ana Azocar, Zorayma Azocar, Sandra Allen, Edwin Guzman and Luz Mercedes.
Mr. Bharara praised the investigative work of the U.S. Department of Education's Office of Inspector General.
This case is being prosecuted by the Office's Complex Frauds and Cybercrime Unit. Assistant U.S. Attorneys Joseph P. Facciponti and Christopher B. Harwood are in charge of the prosecution.
14-141
Top
Printable view
Last Modified: 05/16/2014
How Do I Find...
Student loans, forgiveness
College accreditation
No Child Left Behind
FERPA
2015 Budget Proposal
FAFSA
More >
Information About...
Transforming Teaching
Family and Community Engagement
Early Learning
K-12 Reforms
More >
Connect
Facebook
Twitter
YouTube
Email
RSS
Google+
More >
MISUSED
FOIA
OIG Fraud Hotline
Our mission is to promote student achievement and preparation for global competitiveness by fostering educational excellence and ensuring equal access.
Student Loans
Repaying Loans
Defaulted Loans
Loan Forgiveness
Loan Servicers
Grants & Programs
Apply for Pell Grants
Grants Forecast
Open Grant Competitions
Find Grant Programs by Eligibility
Laws & Guidance
No Child Left Behind
IDEA
Civil Rights
Significant Guidance
Data & Research
Education Statistics
Integrated Postsecondary Education Data System
Nation's Report Card
What Works Clearinghouse
About Us
Contact Us
Jobs
News
FAQs
Budget, Performance
Notices FOIAPrivacySecurityInformation qualityInspector GeneralWhitehouse.govUSA.govBenefits.govRegulations.gov